No. ____________
IN THE

ROBERT DEANE SCHWARTZ,

Petitioner,
v.
RAYMOND MADDEN, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS

I, Tracy Casadio, a Deputy Federal Public Defender in the Office of the
Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), hereby certify that the PETITION
FOR A WRIT OF CERTIORARI in the above-captioned case contains 4,122 words,
excluding the parts of the petition that are exempted by Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dated: July 10, 2020

s/ Tracy Casadio
Tracy Casadio*
Attorney for Petitioner

*Counsel of Record
3

